                                              OFFICE OF WORKERS’
Office of Inspector General—Office of Audit   COMPENSATION PROGRAMS




                                              DISTRICT OF COLUMBIA WORKMEN’S
                                              COMPENSATION ACT SPECIAL FUND
                                              FINANCIAL STATEMENTS AND
                                              INDEPENDENT AUDITORS’ REPORT
                                              September 30, 2009 and 2008



                                                This report was prepared by KPMG, LLP, under contract to the U.S.
                                                Department of Labor, Office of Inspector General, and by acceptance, it
                                                becomes a report of the Office of Inspector General.



                                                                        Assistant Inspector General for Audit




                                                                               Date:           March 09, 2010
                                                                               Report Number: 22-10-005-04-432
                                   District of Columbia Workmen’s Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report


                        DISTRICT OF COLUMBIA WORKMEN’S
                        COMPENSATION ACT SPECIAL FUND

                                 TABLE OF CONTENTS
                                                                                          Page
ACRONYMS                                                                                     iii
Management’s Discussion and Analysis
  Mission and Organizational Structure                                                       1
  Financial Highlights                                                                       2
  Performance Goals and Results                                                              3
  Internal Controls and Systems                                                              3
  Known Risks and Uncertainties                                                              4
  Limitations of the Financial Statements                                                    4
Independent Auditors’ Report                                                                 5
FINANCIAL STATEMENTS
  Balance Sheets                                                                             9
  Statements of Net Cost                                                                    10
  Statements of Changes in Net Position                                                     11
  Statements of Budgetary Resources                                                         12

NOTES TO THE FINANCIAL STATEMENTS
  Note 1 – Summary of Significant Accounting Policies                                       13
  Note 2 – Funds with U.S. Treasury                                                         16
  Note 3 – Investments                                                                      17
  Note 4 – Accounts Receivable, Net of Allowance                                            18
  Note 5 – Other Liabilities                                                                19
  Note 6 – Status of Budgetary Resources                                                    20
  Note 7 – Reconciliation of Budgetary Resources Obligated
           to Net Cost of Operations                                                        21
  Note 8 – Concentration of Risk                                                            21
  Note 9 – Subsequent Event                                                                 22




                                             U.S. Department of Labor—Office of Inspector General
                                               i                 Report Number: 22-10-005-04-432
             District of Columbia Workmen’s Compensation Act Special Fund
                       Financial Statements and Independent Auditors’ Report




THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




                       U.S. Department of Labor—Office of Inspector General
                        ii                  Report Number: 22-10-005-04-432
                               District of Columbia Workmen’s Compensation Act Special Fund
                                         Financial Statements and Independent Auditors’ Report



                       DISTRICT OF COLUMBIA WORKMEN’S
                       COMPENSATION ACT SPECIAL FUND


                                    Acronyms



DCCA     District of Columbia Workmen’s Compensation Act

DLHWC    Division of Longshore and Harbor Workers’ Compensation

DOL      Department of Labor

ESA      Employment Standards Administration

FY       Fiscal Year

LHWCA    Longshore Harbor Workers’ Compensation Act

OMB      Office of Management and Budget

OWCP     Office of Workers’ Compensation Programs

U.S.C.   United States Code




                                         U.S. Department of Labor—Office of Inspector General
                                           iii                Report Number: 22-10-005-04-432
             District of Columbia Workmen’s Compensation Act Special Fund
                       Financial Statements and Independent Auditors’ Report




THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




                       U.S. Department of Labor—Office of Inspector General
                        iv                  Report Number: 22-10-005-04-432
                                District of Columbia Workmen’s Compensation Act Special Fund
                                          Financial Statements and Independent Auditors’ Report

                        DISTRICT OF COLUMBIA WORKMEN’S
                        COMPENSATION ACT SPECIAL FUND
                         Management’s Discussion and Analysis
                              September 30, 2009 and 2008


Mission and Organizational Structure

Two Special Funds are administered by the Office of Workers’ Compensation Program
(OWCP) under Section 44 of the Longshore Harbor Workers’ Compensation Act
(LHWCA); the Longshore and Harbor Workers’ Compensation Act Special Fund created
under the original Act in 1927 and the Special Fund under the District of Columbia
Workmen’s Compensation Act of 1928 (DCCA). These Funds were established for the
primary purpose of equitably distributing among all employers the liabilities associated
with second injury claims (a “second injury” is an injury to a worker which, in combination
with an existing permanent partial impairment, results in the worker’s increased
permanent disability or death).

The reporting entity is the Fund. Organizationally the Fund is administered by the DOL,
Employment Standards Administration (ESA), Office of Workers’ Compensation
Programs (OWCP), Division of Longshore and Harbor Workers’ Compensation program
(DLHWC). The DLHWC has direct responsibility for administration of the Fund. On
November 8, 2009, the ESA was abolished and OWCP now reports directly to the Office
of the Secretary of Labor. The mission of the Fund is to effectively administer a program
of compensation and medical benefits to cover workers who are injured on the job or
suffer from occupational disease. The DLHWC has direct responsibility for all aspects of
the administration of the Fund.

The Fund supports the program mission by providing compensation, and in certain
cases, medical care payments to District of Columbia employees for work related injuries
or death. Effective July 26, 1982, the District of Columbia became responsible for
administration and operation of a separate special fund to cover post July 26, 1982,
injury cases.

The DCCA provides medical benefits, compensation for lost-wages and rehabilitation
services for job-related injuries, diseases or death of certain private-sector workers in the
District of Columbia. Generally, benefits are paid directly from private funds by an
authorized self-insured employer or through an authorized insurance carrier. Cases
meeting the requirements of the LHWCA as extended to DCCA are paid from the Fund
comprised primarily of employer contributions (assessments) and administered by the
DLHWC. In fiscal year, (FY) 2009 and 2008, 550 and 582 injured workers and their
dependants received compensation benefits from the Fund.



                                          U.S. Department of Labor—Office of Inspector General
                                             1                Report Number: 22-10-005-04-432
                               District of Columbia Workmen’s Compensation Act Special Fund
                                         Financial Statements and Independent Auditors’ Report

                       DISTRICT OF COLUMBIA WORKMEN’S
                       COMPENSATION ACT SPECIAL FUND
                        Management’s Discussion and Analysis
                             September 30, 2009 and 2008


Additionally, the DCCA incorporates Section 10(h) of the LHWCA, which provides annual
wage increase compensation (cost of living adjustments). Fifty percent of this annual
wage increase for pre-1972 compensation cases is paid by Federal appropriated funds,
and fifty percent is paid by the Fund through the annual assessment.

Appropriated funding for Section 10(h) is not reflected in the accompanying financial
statements. Appropriated funding is reflected in the Federal Employees Compensation
Act’s Special Benefits Fund.

Although the Fund is administered by the Secretary of Labor, the U.S. Treasury is the
Custodian, holding the funds in trust. The Fund is not property of the United States, but
can only be disbursed as specified in Section 44(i) of the LHWCA. Administrative
services for operating the Fund are provided by the ESA through direct Federal
Appropriations. Appropriated funding for administrative services is not reflected in the
accompanying financial statements.

Financial Highlights

The majority of the revenue of the Fund is generated through annual recurring
assessments paid by self-insured employers and insurance carriers and totaled
$10,730,052 in FY 2009. This compares with assessment revenue of $8,920,136 for
fiscal year 2008. During FY 2009 and FY 2008, no recoveries were made for the Fund
by independent contractors due to reconciliation activities on Forms LS-513, Report of
Payments (used in the calculation of the annual assessment), and negotiation/collection
of past due assessments. The reconciliation activities have uncovered common industry
reporting errors and other industry record-keeping mistakes which, when discovered,
have been eliminated. Recoveries, if any, have and will continue to reduce carrier
assessments and are reflected in the Assessments line on the Statement of Changes in
Net Position.

In addition, investment income for the Fund was $3,572 for FY 2009 compared to
$127,179 for FY 2008. The average interest rate earned during FY 2009 was 0.13%
compared to 2.68% for FY 2008.

The Fund’s costs remained relatively stable compared to FY 2008; $9,777,283 for FY
2009 compared to $10,157,970 for FY 2008. Proceeds of the Fund are used for
payments under: Section 8(f) for second injury claims; Section 10(h) for initial and
subsequent annual adjustments in compensation for permanent total disability or related

                                         U.S. Department of Labor—Office of Inspector General
                                            2                Report Number: 22-10-005-04-432
                                District of Columbia Workmen’s Compensation Act Special Fund
                                          Financial Statements and Independent Auditors’ Report

                        DISTRICT OF COLUMBIA WORKMEN’S
                        COMPENSATION ACT SPECIAL FUND
                         Management’s Discussion and Analysis
                              September 30, 2009 and 2008


death from injuries which occurred prior to the effective date of the 1972 LHWCA
amendments; and Section 18(b) for compensation to injured workers in cases of
employer default.

Performance Goals and Results

DCCA supports the Department of Labor’s Strategic Goal 4 – Strengthened Economic
Protections. This goal broadly promotes the economic security of workers and families. In
particular, the DCCA program supports Performance Goal 4B – Reduce the
Consequences of Work-Related Injuries. The Department of Labor plays a large role in
ensuring that worker benefits are protected and that employers administer benefit
programs in an appropriate way. The DCCA program assists in meeting this outcome
goal by establishing the long term performance goal of ensuring sufficient funds are
assessed to fund the annual payments, and by prompt payment to the beneficiaries.
These targets were achieved. The assessments were sufficient to cover the costs, and
no beneficiaries suffered a delayed payment.

Internal Controls and Systems

The DLHWC’s Branch of Financial Management, Insurance and Assessments is a very
small unit comprised of four employees and one supervisor, all working in very close
proximity to each other. Much of the oversight, evaluation, monitoring, and control and
almost all of the supervisory activity is informal, done on a face-to-face basis. Similarly,
each of the district offices is in itself a small unit, operating in the same fashion as the
Branch of Financial Management, Insurance and Assessments.

Cases paid by the Special Fund are paid as a result of a formal Compensation Order
issued by a District Director or Administrative Law Judge, setting forth precisely what
payment is due and to whom the payment is due. Each new case coming in for Special
Fund payment is prepared and reviewed by a total of five different employees before
payment is made, thus ensuring accuracy.

Monthly cash basis statements, monthly case management reports, quarterly review
processes, biweekly payment summaries, the SF-224 report and statement of
differences all provide current, reliable, and accurate information.

Management communicates all procedural, policy, and operating goals to staff by means
of weekly staff meetings, a written procedure manual, frequent e-mail communication,

                                          U.S. Department of Labor—Office of Inspector General
                                             3                Report Number: 22-10-005-04-432
                                 District of Columbia Workmen’s Compensation Act Special Fund
                                           Financial Statements and Independent Auditors’ Report

                         DISTRICT OF COLUMBIA WORKMEN’S
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2009 and 2008


and frequent individual communications regarding changes, problems and issues.

Known Risks and Uncertainties

The DCCA Fund makes assessments on authorized insurers and self-insurers one year
at a time for current expenses; there is no reserve for future Fund obligations. In keeping
with the requirement of Section 44 of the LHWCA, obligations are paid as they are
incurred. Assessments are based on compensation and medical benefits paid in the prior
calendar year. The DCCA of 1928 has been repealed and the DC Special Fund only
assesses based on payments in cases that arose prior to July 26, 1982. The annual
Special Fund assessment is assessed against a shrinking base of industry payments.
These payments are concentrated among a relatively few insurance carriers and self
insured employers. For example, the largest ten insurance carriers and self-insured
employers alone fund over 63% of the District of Columbia assessments. If one or more
of the largest payers became insolvent and was unable to pay their assessment
obligations, temporary collection issues would result, necessitating special, unscheduled
assessments or other actions to keep the Special Fund funded for current liabilities.

Limitations of the Financial Statements

The following limitations are part of the financial statements:

   The financial statements have been prepared to report the financial position and
    results of operations of the entity, pursuant to the requirements of the Chief Financial
    Officers Act of 1990, United States Code U.S.C. 3515 (b).
   While the statements have been prepared from the books and records of the Fund in
    accordance with the formats prescribed by the Office of Management and Budget,
    (OMB), the statements are different from the financial reports used to monitor and
    control budgetary resources which are prepared from the same books and records.
   The statements should be read with the realization that they are for a component of
    the U.S. Government, a sovereign entity, that liabilities cannot be liquidated without
    the enactment of an appropriation, and that the payment of all liabilities other than for
    contracts can be abrogated by the sovereign entity.




                                           U.S. Department of Labor—Office of Inspector General
                                              4                Report Number: 22-10-005-04-432
                         District of Columbia Workmen’s Compensation Act Special Fund
                                   Financial Statements and Independent Auditors’ Report



                            KPMG LLP
                            2001 M Street, NW
                            Washington, DC 20036



                          Independent Auditors’ Report

Mr. Shelby Hallmark, Director
Office of Workers’ Compensation Programs, U.S. Department of Labor

We have audited the accompanying balance sheets of the U.S. Department of
Labor’s (DOL) District of Columbia Workmen’s Compensation Act Special Fund
(the Fund) as of September 30, 2009 and 2008, and the related statements of
net cost, changes in net position, and budgetary resources (hereinafter referred
to as “financial statements”) for the years then ended. The objective of our audits
was to express an opinion on the fair presentation of these financial statements.
In connection with our fiscal year 2009 audit, we also considered the Fund’s
internal control over financial reporting and tested the Fund’s compliance with
certain provisions of applicable laws and regulations that could have a direct and
material effect on these financial statements.

SUMMARY

As stated in our opinion on the financial statements, we concluded that the
Fund’s financial statements as of and for the years ended September 30, 2009
and 2008, are presented fairly, in all material respects, in conformity with U.S.
generally accepted accounting principles.

Our consideration of internal control over financial reporting was not designed to
identify all deficiencies in the internal control over financial reporting that might be
deficiencies, significant deficiencies, or material weaknesses. However, we did
not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses as defined in the Internal Control Over
Financial Reporting section of this report.
The results of our tests of compliance with certain provisions of laws and
regulations disclosed no instances of noncompliance or other matters that are
required to be reported under Government Auditing Standards, issued by the
Comptroller General of the United States, and Office of Management and Budget
(OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements,
as amended.

The following sections discuss our opinion on the Fund’s financial statements;
our consideration of the Fund’s internal control over financial reporting; our tests
of the Fund’s compliance with certain provisions of applicable laws and
regulations; and management’s and our responsibilities.


                                           U.S. Department of Labor—Office of Inspector General
                                                  5            Report Number: 22-10-005-04-432
                            KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                            a member of KPMG International, a Swiss cooperative.
                        District of Columbia Workmen’s Compensation Act Special Fund
                                  Financial Statements and Independent Auditors’ Report




OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying balance sheets of the U.S. Department of
Labor’s District of Columbia Workmen’s Compensation Act Special Fund as of
September 30, 2009 and 2008, and the related statements of net cost, changes
in net position and budgetary resources for the years then ended.

In our opinion, the financial statements referred to above present fairly, in all
material respects, the financial position of the U.S. Department of Labor’s District
of Columbia Workmen’s Compensation Act Special Fund as of September 30,
2009 and 2008, and its net costs, changes in net position, and budgetary
resources for the years then ended, in conformity with U.S. generally accepted
accounting principles.

The information in the Management’s Discussion and Analysis is not a required
part of the financial statements, but is supplementary information required by
U.S. generally accepted accounting principles. We have applied certain limited
procedures, which consisted principally of inquiries of management regarding the
methods of measurement and presentation of this information. However, we did
not audit this information and, accordingly, we express no opinion on it.

INTERNAL CONTROL OVER FINANCIAL REPORTING

Our consideration of the internal control over financial reporting was for the
limited purpose described in the Responsibilities section of this report and was
not designed to identify all deficiencies in the internal control over financial
reporting that might be deficiencies, significant deficiencies or material
weaknesses.
A deficiency in internal control exists when the design or operation of a control
does not allow management or employees, in the normal course of performing
their assigned functions, to prevent, or detect and correct misstatements on a
timely basis. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance. A
material weakness is a deficiency, or combination of deficiencies, in internal
control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected
on a timely basis.
In our fiscal year 2009 audit, we did not identify any deficiencies in internal
control over financial reporting that we consider to be material weaknesses as
defined above.



                                  U.S. Department of Labor—Office of Inspector General
                                         6            Report Number: 22-10-005-04-432
                          District of Columbia Workmen’s Compensation Act Special Fund
                                    Financial Statements and Independent Auditors’ Report




COMPLIANCE AND OTHER MATTERS

The results of certain of our tests of compliance described in the Responsibilities
section of this report disclosed no instances of noncompliance or other matters
that are required to be reported herein under Government Auditing Standards or
OMB Bulletin No. 07-04, as amended.
                                       * * * * *

RESPONSIBILITIES

Management’s Responsibilities. Management is responsible for the financial
statements; establishing and maintaining effective internal control; and complying
with laws and regulations applicable to the Fund.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the
fiscal year 2009 and 2008 financial statements of the Fund based on our audits.
We conducted our audits in accordance with auditing standards generally
accepted in the United States of America; the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and OMB Bulletin No. 07-04, as amended. Those
standards and OMB Bulletin No. 07-04, as amended, require that we plan and
perform the audits to obtain reasonable assurance about whether the financial
statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures
that are appropriate in the circumstances, but not for the purpose of expressing
an opinion on the effectiveness of the Fund’s internal control over financial
reporting. Accordingly, we express no such opinion.

An audit also includes:

   Examining, on a test basis, evidence supporting the amounts and disclosures
    in the financial statements;

   Assessing the accounting principles used and significant estimates made by
    management; and

   Evaluating the overall financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2009 audit, we considered the Fund’s
internal control over financial reporting by obtaining an understanding of the
Fund’s internal control, determining whether internal controls had been placed in
operation, assessing control risk, and performing tests of controls as a basis for

                                    U.S. Department of Labor—Office of Inspector General
                                           7            Report Number: 22-10-005-04-432
                       District of Columbia Workmen’s Compensation Act Special Fund
                                 Financial Statements and Independent Auditors’ Report




designing our auditing procedures for the purpose of expressing our opinion on
the financial statements. We did not test all controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of
1982. The objective of our audit was not to express an opinion on the
effectiveness of the Fund’s internal control over financial reporting. Accordingly,
we do not express an opinion on the effectiveness of the Fund’s internal control
over financial reporting.

As part of obtaining reasonable assurance about whether the Fund’s fiscal year
2009 financial statements are free of material misstatement, we performed tests
of the Fund’s compliance with certain provisions of laws and regulations,
noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts, and certain provisions of other
laws and regulations specified in OMB Bulletin No. 07-04, as amended. We
limited our tests of compliance to the provisions described in the preceding
sentence, and we did not test compliance with all laws and regulations applicable
to the Fund. However, providing an opinion on compliance with laws and
regulations was not an objective of our audit and, accordingly, we do not express
such an opinion.

This report is intended solely for the information and use of DOL’s management,
DOL’s Office of Inspector General, OMB, the U.S. Government Accountability
Office, and the U.S. Congress, and is not intended to be and should not be used
by anyone other than these specified parties.




February 19, 2010




                                 U.S. Department of Labor—Office of Inspector General
                                        8            Report Number: 22-10-005-04-432
                                       District of Columbia Workmen’s Compensation Act Special Fund
                                                 Financial Statements and Independent Auditors’ Report



                            DISTRICT OF COLUMBIA WORKMEN'S
                            COMPENSATION ACT SPECIAL FUND
                                         Balance Sheets
                                 September 30, 2009 and 2008


                         Assets                                        2009               2008
Intra-governmental assets:
   Funds with U.S. Treasury (Note 2)                            $     994,978            438,900
   Investments (Note 3)                                             5,228,000          5,160,000
            Total intra-governmental assets                         6,222,978          5,598,900
Accounts receivable, net of allowance (Note 4)                        674,339            190,578
           Total assets                                         $   6,897,317          5,789,478
                Liabilities and Net Position
Liabilities:
  Accrued benefits payable                                      $          —             344,739
  Deferred revenue                                                  2,858,019          2,125,000
  Other liabilities (Note 5)                                           59,414            296,196
            Total liabilities                                       2,917,433          2,765,935
Net position:
  Cumulative results of operations                                  3,979,884          3,023,543
            Total liabilities and net position                  $   6,897,317          5,789,478


See accompanying notes to financial statements.




                                                 U.S. Department of Labor—Office of Inspector General
                                                   9                 Report Number: 22-10-005-04-432
                                     District of Columbia Workmen’s Compensation Act Special Fund
                                               Financial Statements and Independent Auditors’ Report




                        DISTRICT OF COLUMBIA WORKMEN'S
                        COMPENSATION ACT SPECIAL FUND
                                    Statements of Net Cost
                       Years ended September 30, 2009 and 2008


                                                                    2009               2008
Special fund cost of operations:
    Second injury compensation, Section 8(f)                 $   8,881,018          9,301,723
    Wage increase compensation, Section 10(h)                      590,135            630,060
    Compensation payment for self-insurer in default,
      Section 18(b)                                                306,130            226,187
           Net cost of operations                            $   9,777,283         10,157,970


See accompanying notes to financial statements.




                                               U.S. Department of Labor—Office of Inspector General
                                                 10                Report Number: 22-10-005-04-432
                                     District of Columbia Workmen’s Compensation Act Special Fund
                                               Financial Statements and Independent Auditors’ Report




                           DISTRICT OF COLUMBIA WORKMEN'S
                           COMPENSATION ACT SPECIAL FUND
                            Statements of Changes in Net Position
                          Years ended September 30, 2009 and 2008


                                                                      2009                2008
Cumulative results of operations, beginning                   $     3,023,543          4,134,198
Budgetary financing sources:
  Non-exchange revenues:
    Investment interest                                                3,572              127,179
    Assessments                                                   10,730,052            8,920,136
            Total non-exchange revenues                           10,733,624           9,047,315
Net cost of operations                                             (9,777,283)       (10,157,970)
            Net position, end of period                       $     3,979,884          3,023,543


See accompanying notes to financial statements.




                                               U.S. Department of Labor—Office of Inspector General
                                                 11                Report Number: 22-10-005-04-432
                                   District of Columbia Workmen’s Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report




                          DISTRICT OF COLUMBIA WORKMEN'S
                          COMPENSATION ACT SPECIAL FUND
                             Statements of Budgetary Resources
                         Years ended September 30, 2009 and 2008


                                                                   2009                 2008
Budgetary resources:
  Unobligated balance, brought forward                    $      5,256,086             6,364,276
  Budget authority
    Appropriations received (assessments)                       10,717,796             8,898,933
           Total budgetary resources                      $     15,973,882           15,263,209
Status of budgetary resources:
  Obligations incurred (Note 6)
     Direct                                               $      9,748,978           10,007,123
  Unobligated balances - available:
     Other available - exempt from apportionment                 6,224,904             5,256,086
           Total status of budgetary resources            $     15,973,882           15,263,209
Change in obligated balance:
  Obligated balance , net
    Unpaid obligations, brought forward, October 1        $        344,739              297,923
  Obliations incurred, net                                       9,748,978           10,007,123
  Less: Gross Outlays                                          (10,093,717)          (9,960,307)
  Obligated balance, net, end of period
    Unpaid obligations                                    $               —              344,739
Outlays:
 Gross Outlays                                            $     10,093,717             9,960,307
  Net outlays                                             $     10,093,717             9,960,307


See accompanying notes to financial statements.




                                             U.S. Department of Labor—Office of Inspector General
                                               12                Report Number: 22-10-005-04-432
                                      District of Columbia Workmen’s Compensation Act Special Fund
                                                Financial Statements and Independent Auditors’ Report

                            DISTRICT OF COLUMBIA WORKMEN’S
                            COMPENSATION ACT SPECIAL FUND
                                Notes to the Financial Statements
                           Years ended September 30, 2009 and 2008


(1)    Summary of Significant Accounting Policies
      The principal accounting policies which have been followed by the Fund in preparing the
      accompanying financial statements are set forth below.
      (a)   Reporting Entity
            These financial statements present the financial position, net cost of operations,
            changes in net position, and budgetary resources of the District of Columbia
            Workmen’s Compensation Act Special Fund (the Fund). The Fund is administered
            by the United States Department of Labor (DOL), Employment Standards
            Administration (ESA), Office of Workers’ Compensation Programs (OWCP),
            Division of Longshore and Harbor Workers’ Compensation program (DLHWC). The
            DLHWC has direct responsibility for administration of the Fund. On November 8,
            2009, the ESA was abolished and OWCP now reports directly to the Office of the
            Secretary of Labor. The Fund offers compensation, and in certain cases, medical
            care payments to District of Columbia employees for work related injuries or death
            incurred on or before July 26, 1982. Effective July 26, 1982, the District of Columbia
            Workmen’s Compensation Act was amended whereby the Mayor of the District of
            Columbia became responsible for administration and operation of a separate
            special fund to cover post July 26, 1982, injury cases.
            Additionally, the District of Columbia Workmen’s Compensation Act Section 10(h)
            provides annual wage increase compensation (cost of living adjustments). Fifty
            percent of this annual wage increase for pre-1972 compensation cases is paid by
            Federal appropriated funds and fifty percent is paid by the Fund through the annual
            assessment. Appropriated funding for 10(h) is not reflected in the accompanying
            financial statements. Appropriated funding is reflected in the Federal Employees
            Compensation Act’s Special Benefit Fund. Also, these financial statements do not
            include the Special Fund administered by the Mayor of the District of Columbia for
            injury cases occurring after July 26, 1982.
      (b)   Basis of Accounting and Presentation
            These financial statements present the financial position, net cost of operations,
            changes in net position and budgetary resources, in accordance with U.S. generally
            accepted accounting principles and the form and content requirements of OMB
            Circular A-136. These financial statements have been prepared from the books and
            records of the Fund. These financial statements are not intended to present, and do


                                                U.S. Department of Labor—Office of Inspector General
                                                  13                Report Number: 22-10-005-04-432
                                District of Columbia Workmen’s Compensation Act Special Fund
                                          Financial Statements and Independent Auditors’ Report

                      DISTRICT OF COLUMBIA WORKMEN’S
                      COMPENSATION ACT SPECIAL FUND
                          Notes to the Financial Statements
                     Years ended September 30, 2009 and 2008


      not present, the full cost of the District of Columbia Workmen’s Compensation
      (DCCA) program administered under the Longshore and Harbor Workers’
      Compensation Act Program (Longshore Program). In addition to the Fund costs
      presented in these statements, the full cost of the DCCA portion of the Longshore
      Program would include certain direct costs of ESA in the form of salaries and
      expenses for administration of the Longshore Program and allocated costs of ESA
      and other DOL agencies incurred in support of the Longshore Program. The full
      cost of the DCCA portion of the Longshore Program is included in the DOL
      Consolidated Financial Statements and related notes. The Fund is considered a
      fiduciary activity of DOL, and is properly disclosed and reported in the consolidated
      statements of DOL as a fiduciary fund.
      U.S. generally accepted accounting principles encompass both accrual and
      budgetary transactions. Under accrual accounting, revenues are recognized when
      earned, and expenses are recognized when a liability is incurred. Budgetary
      accounting facilitates compliance with legal constraints on, and controls over, the
      use of federal funds. These financial statements are different from the financial
      reports, also prepared for the Fund pursuant to OMB directives, used to monitor the
      Fund’s use of budgetary resources.
(c)   Funds with U.S. Treasury
      The Fund does not maintain cash in commercial bank accounts. Cash receipts and
      disbursements are processed by the U.S. Treasury. The Fund balance with U.S.
      Treasury is available to pay current liabilities and finance authorized purchase
      commitments.
(d)   Investments
      Investments in U.S. Government securities are reported at cost, net of unamortized
      premiums or discounts, which approximate market value. Premiums or discounts
      are amortized on a straight-line basis, which approximates the effective interest
      method. The Fund’s intent is to hold investments to maturity, unless they are
      needed to finance claims or otherwise sustain the operations of the Fund. No
      provision is made for unrealized gains or losses on these securities because they
      are held to maturity.




                                          U.S. Department of Labor—Office of Inspector General
                                            14                Report Number: 22-10-005-04-432
                                 District of Columbia Workmen’s Compensation Act Special Fund
                                           Financial Statements and Independent Auditors’ Report

                      DISTRICT OF COLUMBIA WORKMEN’S
                      COMPENSATION ACT SPECIAL FUND
                          Notes to the Financial Statements
                     Years ended September 30, 2009 and 2008


(e)   Accounts Receivable, Net of Allowance
      The amounts due as receivables are stated net of an allowance for uncollectible
      accounts. The allowance is estimated based on past experience in the collection of
      the receivables and an analysis of the outstanding balances. Accounts receivable
      are comprised of assessments receivable and Fund benefit overpayments to
      individuals primarily from awarded compensation orders and corrections of payment
      computations.
(f)   Accrued Benefits Payable
      The Fund provides compensation and medical benefits for work related injuries to
      employees of the District of Columbia that were incurred on or before July 26, 1982.
      The Fund recognizes a liability for disability benefits payable to the extent of unpaid
      benefits applicable to the current period. It does not include a liability for those
      estimated claims to be presented and paid by the fund related to covered workers in
      future years. Ultimate responsibility for the payment of such claims rests with the
      employer organizations. All disability benefits due and payable as of September 30,
      2009 were paid as of September 30, 2009.
(g)   Assessment Overpayment by Carriers
      Assessment overpayments are current liabilities and are to be refunded upon
      insurance carrier or self-insured employer’s request, or applied to reduce future
      assessments.
(h)   Deferred Revenue
      Deferred revenues represent the unearned assessment revenue as of
      September 30, the Fund’s accounting year end. The annual assessments cover a
      calendar year and accordingly, the portion extending beyond September 30 has
      been deferred. Deferred revenues reported on the balance sheets are considered
      “Other Liabilities” under OMB Circular A-136.
(i)   Financing Sources Other Than Exchange Revenue
      Non-exchange revenues arise from the Federal government’s power to demand
      payments from and receive donations from the public. Non-exchange revenues are
      recognized by the Fund for assessments levied against the public and interest
      income from investments.


                                           U.S. Department of Labor—Office of Inspector General
                                             15                Report Number: 22-10-005-04-432
                                         District of Columbia Workmen’s Compensation Act Special Fund
                                                   Financial Statements and Independent Auditors’ Report

                           DISTRICT OF COLUMBIA WORKMEN’S
                           COMPENSATION ACT SPECIAL FUND
                                 Notes to the Financial Statements
                          Years ended September 30, 2009 and 2008


            The Fund’s primary source of revenue is annual assessments levied on insurance
            carriers and self-insured employers. Assessments are recognized as non-exchange
            revenue when due. The Fund also receives interest on Fund investments and on
            Federal funds in the possession of non-Federal entities.
(2)    Funds with U.S. Treasury
      Funds with U.S. Treasury at September 30, 2009 and 2008 consisted of cash deposits of
      $994,978 and $438,900 respectively. These cash deposits at September 30, 2009 and
      2008 included $5 and $31, respectively, which are being held as security by authority of
      Section 32 of the Longshore and Harbor Workers’ Compensation Act. The funds held as
      security by authority of Section 32 of the LHWCA relate to the default of self-insured
      employers and are available for payment of compensation and medical benefits to
      covered employees of the defaulted companies.
      Funds with U.S. Treasury at September 30, 2009 consisted of the following:
                                                 Entity Assets
                              Unobligated Unobligated     Obligated
                               Balance     Balance       Balance Not    Total     Non-entity
      (In Dollars)             Available  Unavailable Yet Disbursed Entity Assets  Assets       Total
      Special Fund        $          —            —        994,978      994,978          —     994,978


      Funds with U.S. Treasury at September 30, 2008 consisted of the following:
                                                 Entity Assets
                              Unobligated Unobligated     Obligated
                               Balance     Balance       Balance Not    Total     Non-entity
      (In Dollars)             Available  Unavailable Yet Disbursed Entity Assets  Assets      Total
      Special Fund        $          —            —        438,900     438,900           —     438,900




                                                   U.S. Department of Labor—Office of Inspector General
                                                     16                Report Number: 22-10-005-04-432
                                       District of Columbia Workmen’s Compensation Act Special Fund
                                                 Financial Statements and Independent Auditors’ Report

                            DISTRICT OF COLUMBIA WORKMEN’S
                            COMPENSATION ACT SPECIAL FUND
                                Notes to the Financial Statements
                           Years ended September 30, 2009 and 2008


(3)    Investments
      Investments at September 30, 2009 and 2008 consisted of the following:
                                                            September 30, 2009
                                          Face            Premium          Net             Market
      (In Dollars)                        Value          (Discount)      Value             Value
      Intragovernmental securities:
         Marketable                   $ 5,228,000               —        5,228,000       5,228,000


                                                            September 30, 2008
                                          Face            Premium          Net             Market
      (In Dollars)                        Value          (Discount)      Value             Value
      Intragovernmental securities:
         Marketable                   $ 5,160,000               —        5,160,000       5,160,000


      Investments of $58,700 and $58,600 at September 30, 2009 and 2008, respectively, are
      being held as security by authority of Section 32 of the Longshore and Harbor Workers’
      Compensation Act. Section 32 investments relate to the default of self-insured employers
      and are restricted. These investments are available for payment of compensation and
      medical benefits to covered employees of the defaulted companies. Investments at
      September 30, 2009 and 2008 consist of overnight securities. Investments at
      September 30, 2009, bear an interest rate of 0.07 % compared to an interest rate of
      0.33% for September 30, 2008. Interest rates on securities bought and sold during fiscal
      year 2009 ranged from 0.01% to 1.03% compared to 0.25% to 4.95% for fiscal year
      2008.




                                                  U.S. Department of Labor—Office of Inspector General
                                                    17                Report Number: 22-10-005-04-432
                                             District of Columbia Workmen’s Compensation Act Special Fund
                                                       Financial Statements and Independent Auditors’ Report

                                DISTRICT OF COLUMBIA WORKMEN’S
                                COMPENSATION ACT SPECIAL FUND
                                      Notes to the Financial Statements
                                Years ended September 30, 2009 and 2008


(4)    Accounts Receivable, Net of Allowance
      Accounts receivable at September 30, 2009 and 2008 consisted of the following:

      (In Dollars)                                                                 2009                    2008

         Benefit overpayments                                             $        164,184        $       193,209
         Assessments receivable                                                    539,015                     —
         Less: allowance for doubtful accounts                                     (28,860)                (2,631)
           Total accounts receivable from the public, net                 $        674,339        $       190,578

      Assessments receivable represent the unpaid annual assessments from the current and
      prior years. Accounts receivable from overpayments to claimants arise primarily from
      amended compensation orders and corrections of payment computations. These
      receivables are being primarily recovered by partial and total withholding of benefit
      payments.
      Changes in the allowance for doubtful accounts during FY 2009 and FY 2008 consisted
      of the following:
                                                                           2009
                                       Allowance        Write         Revenue                             Allowance
      (In Dollars)                   October 1, 2008    Offs         Adjustment     Ba d Debt         September 3 0, 2009

      Entity assets:
        Benefit overpayments     $           (2,631)             -            -           721                      (1,910)
        Assessment receivable                     -              -            -       (26,950)                    (26,950)
                                 $           (2,631)             -            -       (26,229)                    (28,860)

                                                                           2008
                                       Allowance         Write        Revenue                             Allowa nce
      (In Dollars)                   October 1, 2007     Offs        Adjustme nt     Bad Debt         September 30, 2008

      Entity assets:
        Benefit overpayments     $           (85,357)          -              -         82,726                     (2,631)
        Assessment receivable                (23,780)     94,003              -        (70,223)                         -
                                 $         (1 09,137)     94,003              -        12,503                      (2,631)




                                                        U.S. Department of Labor—Office of Inspector General
                                                          18                Report Number: 22-10-005-04-432
                                          District of Columbia Workmen’s Compensation Act Special Fund
                                                    Financial Statements and Independent Auditors’ Report

                              DISTRICT OF COLUMBIA WORKMEN’S
                              COMPENSATION ACT SPECIAL FUND
                                   Notes to the Financial Statements
                             Years ended September 30, 2009 and 2008


(5)    Other Liabilities
      Other liabilities at September 30, 2009 and 2008 consisted of the following current
      liabilities:

      (In Dollars)                                                   2009               2008
      Other liabilities:
        Assessment overpayments by carriers                   $          709           237,565
        Defaulted employer liability:
          Held in investments                                         58,700            58,600
          Held in cash                                                     5                31
                                                                      58,705            58,631
                     Total other liabilities                  $       59,414           296,196


      Assessment overpayments are to be refunded upon request or applied to reduce future
      assessments.
      Defaulted employer liability relates to the funds and investments held by the District of
      Columbia Special Fund which are being held as security by authority of Section 32 of the
      Act. These funds and investments are available for compensation and medical benefits
      to covered employees of the defaulted companies. Management estimates that these
      funds and investments held will be sufficient to cover the future benefits associated with
      the covered employees.




                                                    U.S. Department of Labor—Office of Inspector General
                                                      19                Report Number: 22-10-005-04-432
                                         District of Columbia Workmen’s Compensation Act Special Fund
                                                   Financial Statements and Independent Auditors’ Report

                            DISTRICT OF COLUMBIA WORKMEN’S
                            COMPENSATION ACT SPECIAL FUND
                                    Notes to the Financial Statements
                           Years ended September 30, 2009 and 2008


(6)    Status of Budgetary Resources
      (a)   Apportionment Categories of Obligations Incurred
            Obligations incurred reported on the Statement of Budgetary Resources in FY 2009
            and FY 2008 consisted of the following:

            (In Dollars)                                                 2009                2008
            Direct Obligations:
              Exempt from apportionment                            $   9,748,978       10,007,123


      (b)   Explanation of Differences Between the Statement of Budgetary Resources
            and the Budget of the United States Government
            A reconciliation of budgetary resources, obligations incurred and outlays, as
            presented in the Statement of Budgetary Resources to amounts included in the
            Budget of the United States Government for the year ended September 30, 2008 is
            shown below:

                                                                               2008
                                                                   Budgetary Obligations
            (Dollars in Millions)                                  Resources Incurred           Outlays
            Statement of Budgetary Resources - LSHW $                   189            131          130

            Statement of Budgetary Resources - DCCA                      15             10            10

            Total Statement of Budgetary Resources             $        204            141          140

            Budget of the United States Government             $        204            141          140




                                                   U.S. Department of Labor—Office of Inspector General
                                                     20                Report Number: 22-10-005-04-432
                                      District of Columbia Workmen’s Compensation Act Special Fund
                                                Financial Statements and Independent Auditors’ Report

                             DISTRICT OF COLUMBIA WORKMEN’S
                             COMPENSATION ACT SPECIAL FUND
                                 Notes to the Financial Statements
                             Years ended September 30, 2009 and 2008


(7)   Reconciliation of Budgetary Resources Obligated to Net Cost of Operations

                                                                       2009               2008
      Obligations incurred                                    $      9,748,978         10,007,123
                 Total resources used to finance activities          9,748,978         10,007,123
                 Total Resources used to finance the
                   net cost of operations                            9,748,978         10,007,123
      Components not requiring or generating resources:
        Revaluation of assets and liabilities                               —                  —
        Other                                                           28,305            150,847
                 Total components of net cost of operations
                   that will not require or generate resources          28,305            150,847
                     in the current period
                 Net cost of operations                       $      9,777,283         10,157,970




(8)   Concentration of Risk
      The Fund makes assessments to authorized insurers and self-insurers one year at a
      time for current expenses; there is no reserve for future Fund obligations. In keeping
      with the requirement of Section 44 of the Longshore and Harbor Workers’
      Compensation Act, obligations are paid as they are incurred. Assessments are based
      on compensation and medical benefits paid in the prior calendar year. As previously
      discussed, the District of Columbia Workmen’s Compensation Act of 1928 has been
      repealed and the Fund only assesses based on payments in cases that arose on or
      before July 26, 1982. Therefore, the annual Special Fund assessment is assessed for a
      shrinking population of claims. These assessments are concentrated among a relatively
      few insurance carriers and self insured employers. For example, the largest ten
      insurance carriers and self insured employers alone fund over 63% of the Fund
      assessments.


                                                U.S. Department of Labor—Office of Inspector General
                                                  21                Report Number: 22-10-005-04-432
                                 District of Columbia Workmen’s Compensation Act Special Fund
                                           Financial Statements and Independent Auditors’ Report

                         DISTRICT OF COLUMBIA WORKMEN’S
                         COMPENSATION ACT SPECIAL FUND
                           Notes to the Financial Statements
                             September 30, 2009 and 2008


(9)   Subsequent Event
      The Employment Standards Administration (ESA) was dissolved on November 8, 2009.
      The Office of Workers’ Compensation Programs (OWCP) now report directly to the
      Office of the Secretary.




                                           U.S. Department of Labor—Office of Inspector General
                                             22                Report Number: 22-10-005-04-432
